gi
I

C@QCKLE

. E-Mail Address:
Legal Briefs contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 20-503
TOFIG KURBANOV,
Petitioner,
Vv.

UMG RECORDINGS, INC.; CAPITOL RECORDS, LLC;
WARNER BROS RECORDS INC.; ATLANTIC RECORDING
CORPORATION; ELEKTRA ENTERTAINMENT
GROUP INC.; FUELED BY RAMEN LLC; NONESUCH
RECORDS, INC.; SONY MUSIC ENTERTAINMENT;
SONY MUSIC ENTERTAINMENT US LATIN LLC;
ARISTA RECORDS LLC; LAFACE RECORDS LLC;
and ZOMBA RECORDING LLC,

Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the REPLY IN SUPPORT OF
PETITION FOR WRIT OF CERTIORARI in the above entitled case complies with the typeface
requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point
for the text and 10 point for the footnotes, and this brief contains 2674 words, excluding the parts

that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 5th day of January, 2021.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

Fee] Kewre 9. ttaooe Oude ble

Affiant

 
 

 

Notary Public
40522
